STATEMENT OF SERVICE

Case No. 20-138
Case Title: Biden et al. v. Sierra Club, et al.
Type of Document: Respondents’ Opposition to Motion to Vacate and Remand
Date documents were filed via the U.S. Supreme Court’s electronic filing system:
June 18, 2021
Date documents were emailed to the Court, opposing counsel, and each counsel of
record for parties to the case:
June 18, 2021
Date documents were sent via overnight UPS to the Court, opposing counsel, and
each counsel of record for parties to the case:
June 18, 2021
Name, addresses and email addresses of individual served:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
aimee.feinberg@doj.ca.gov
Joshua A. Klein
California Department of Justice - Office of the Solicitor General
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
joshua.klein@doj.ca.gov

Douglas Wharton Alexander
Alexander Dubose et al.
Bank of America Center
515 Congress Avenue, Suite 1720
Austin, TX 78701
dalexander@adjtlaw.com
Samuel Franklin Daughety
Dentons-US LLP
1900 K Street, N.W.
Washington, DC 20006
samuel.daughety@dentons.com
John Arak Freedman
Arnold & Porter Kaye Scholer, LLP
601 Mass. Ave., NW
Washington, DC 20001
John.Freedman@arnoldporter.com
Brianne Jenna Gorod
Constitutional Accountability Center
1200 18th Street, NW, Suite 501
Washington, DC 20036
brianne@theusconstitution.org
Dorothy Alicia Hickok
Faegre Drinker Biddle & Reath LLP
One Logan Square
Philadelphia, PA 19103
alicia.hickok@dbr.com
Richard Peter Hutchison
Landmark Legal Foundation
3100 Broadway, Suite 1200
Kansas City, MO 64111
pete.hutch@landmarklegal.org
Lawrence J. Joseph
Law Office of Lawrence J. Joseph
1250 Connecticut Avenue, NW, Suite 700-1A
Washington, DC 20036
ljoseph@larryjoseph.com
Douglas Neal Letter

Office of General Counsel of the U.S. House of Representatives
219 Cannon House Office Building
Washington, DC 20515
douglas.letter@mail.house.gov
Jason Craig Rylander
Defenders of Wildlife
1130 17th Street NW
Washington, DC 20036
jrylander@defenders.org
Jay Alan Sekulow
American Center for Law and Justice
201 Maryland Avenue, N.E.
Washington, DC 20002
sekulow@aclj.org
Ilya Shapiro
Cato Institute
1000 Massachusetts Ave., NW
Washington, DC 20001
ishapiro@cato.org
Jonathan Calvin Wood
Pacific Legal Foundation
3100 Clarendon Blvd., Suite 610
Arlington, VA 22201-5330
jwood@pacificlegal.org
Steven Alan Zalesin
Patterson Belknap Webb and Tyler LLP
1133 Avenue of the Americas
New York, NY 10036
sazalesin@pbwt.com
/s/ Dror Ladin
Dror Ladin
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street, Fl 18
New York, NY 10004
212-284-7303
dladin@aclu.org

